 Department of Health and Human Services

ADM NITRATION   ON AGING
           AND
        OFFICE OF
   INSPECTOR GENERAL




 STATE IMPLEMENTAmON   OF THE
STEWARDSlm?  REQUIREMENTS   OF
   THE OLDER AMERICANS ACT
                              ADMINISTRATION         ON   AGING

The Administration on Aging (AoA) is the principal Federal agency designed to carry out the
provisions of the Older Americans Act (OAA). It advises the Secretary of Health and Human
Sexvices and other Federal agencies on the characteristics, circumstances and needs of older
individuals. Further, it develops policies, plans, and programs designed to promote their
welfare.

AoA administers three grant programs under the Older Americans Act. The largest program -
- Title III of the Act -- consist of formula grants to States to establish State and community-
based programs for older individuals with the purpose of preventing the premature
institutionalization of older individuals. The second program -- Title VI -- consists of
discretionary grants with the same purpose as Title III, but to meet the unique needs of older
Native Americans. The third program -- Title IV -- is also discretionary. Its purpose is to fund
research, demonstration, and training activities to elicit knowledge and techniques to improve
the circumstances of older Americans. (The 1992 Amendments to the OAA created a fourth
program -- Title VII -- which provides funds for State activities to protect the rights of
vulnerable older people. prior to the 1992 Amendments, Title III of the O&l provided the
funds for these activities.)

                            OFFICE OF INSPECX’OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452. as
amended, is to protect the integrity of the Department   of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries seined by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evacuation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

T’hc OIG’S Office of Evaluation and Inspections   (OEI) conducts  short-term  management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations     contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficienq, vulnerability,
and effectiveness of departmental programs.

                                        THIS REPORT

This report is the result of a joint effort between AoA and OIG/OEI to assess the
implementation of Title 111of the Older Americans Act. OIG staff in the New York and
Dallas regional offices provided technical support to the joint project. AoA staff in New York
and Dallas directed the project with all regional offices participating in the development of
instruments and data collection.

For additional information, please contact:

AoA            John Dia~ Regional Program Director-Dallas                    214-767-2971
OIG            Jack Molnar, Project Leader-New York                          ‘21~-’264lg9~
 Department of Health and Human Services

ADMINISTMTION   ON AGING

           AND
        OFFICE OF
   INSPECTOR GENERAL




 STATE IMPLEMENTAmON   OF ‘rHF.
STEWARDSHIP  REQUIREMENTS    OF
   THE OLDER AMERICNS   ACT




           APRKL 1993   OEI-02-91-01512

               EXECUTIVE                        SUMMARY
PURPOSE

To review State Units’ on Aging (SUA) implementation of the stewardship
requirements of Title III of the Older Americans Act (OAA).

BACKGROUND

In an effort to strengthen its stewardship of the O*    the Commissioner of the
Administration on Aging (AoA) requested technical assistance from the Office of
Inspector General (OIG) in designing a review of their primary Title III grantees --
SUAS. After reviewing traditional and current stewardship activities, and discussing
potential approaches for future efforts, we agreed that a review of individual States
would be instituted in such a way as to provide the commissioner   with an overview of
how States are implementing key components of Title III. In order to conserve
limited travel funds the reviews would be conducted on a sample of States and would
focus on only five programmatic areas -- stewardship, targeting, ombudsman, nutrition,
and financial management.

This report on stewardship addresses the primary operating relationship between each
SUA and its area agencies on aging. It focuses on issuing guidance on and monitoring
implementation of the key requirements  of Title III of the OAA, including the area
planning process.

METHODOLOGY

The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. In the first step of
the sampling process, States were divided into four strata based upon the number of
older individuals in each State. In the second step, five States were selected from
each stratum. This stratified, random sample permits a generalization    of findings from
the 20 sample States to the Nation.

FINDINGS

Area Planniizg And Review Work Welt But There Are A Few Weaknesses

  �   43 percent do not address coordination with mental health agencies
  �   36 percent do not address evaluation of outreach
  �   29 percent do not address coordination with long term care agencies

Waiven Are Commq       But Do Not Always Follow l?mcedunx

  �   Most States grant direct service waivers
  �   Many States do not follow adequate proportion waiver requirements



                                            i
Ass essmen@ Atkkess Mwt Requiremenfi, But Not Always Annual&

  �   One-third of States do not conduct annual on-site assessments of area agencies
  �   A variety of methodologies are used to assess area agencies on aging
  �   Coordination with mental health and long term care agencies, as well as
       evaluation of outreach, is often missing from assessments

All Area Agencies on Aging Evakate Activi&s And ConAct Mlk          Heatigs,   But Many
Do Not Access % Effectiveness of Outreach

  �   Only half of States report all of their area agencies have conducted annual
       outreach evaluations

State Agencies I?wide Technical Ass&tance And naintig TOAd&ss Area Agencks on
A~”ngDeficiencies

  s 63 percent of States still report having unmet training and technical assistance
     needs that must be addressed




                                            ii
                        TABLE                   OF CONTENTS

E=CXJTIVE           SUMMARY            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCHON               .........................................                                        . . . . . ...1




  �
      Area Planning And Review Have Weaknesses . . . . . . . . . . . . . . . . . . . . . . . . . .                           4


  b
      WaiversAre      Common         . . . . .. O. .. O. . . . . . . ..O...          . . . . . . . . . . . . . . . ..O.      6


  �
      Assessments NotAlwaysAnnual                 ....................................                                       6


  �
      Many AAAs Do NotAccess               Outreach         ...............................                                  9


  �
      SUAsProvideTechnical/kistance                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


APPENDICES

& Appendix A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l
                         INTRODUCTION
PURPOSE

To review State Units’ on Aging (SUA) implementation of the stewardship
requirements of Title III of the Older Americans Act (OAA). In this report, the term
“stewardship” refers to the primary operating relationship between each SUA and its
area agencies on aging. It focuses on issuing guidance on and monitoring
implementation of the key requirements of Title III of the 0~     including the area
planning   process.

BACKGROUND

Under the O@ the Administration on Aging (AoA) serves as the principal Federal
advocate for older individuals, providing national leadership in the development of
programs to address their needs. Through Title III of OAA (Grants for State and
Community Programs on Aging), AoA encourages         and assists WAS   and area agencies
on aging (AAAs) to implement a system of coordinated community-based services to
prevent the premature institutionalization of older individuals by allowing them to
remain in their own community.

Under Title III, AoA distributes approximately $765 million in formula grants to States
based on the age 60+ population within each State. The SUAS use about 5 percent
of the grant on administration, and then fund AAAs who then contract for the
supportive services, nutrition services and multipurpose senior centers. The single
largest component of Title III, the nutrition program, provides approximately $450
million for congregate and home-delivered meals. Other key program components
include supportive services (i.e., access services, in-home services and legal assistance)
and the Ombudsman program which serves as an advocate for residents in long term
care facilities.

One of AoA’s major administrative responsibilities is to provide stewardship over the
States’ implementation    of the Title III program.   However, AoA’s capacity to carry out
its stewardship responsibilities declined substantially during the 1980’s due to a
significant reduction in resources. More specifically, AoA sustained a 47 percent
reduction in staff and 75 percent reduction in travel funds. Each regional office had
only $2,000 annually for travel. Because they could not monitor SUAS’, AoA became
further and further removed from the activities of the SUAS and their area agencies
on aging.

In an effort to strengthen its stewardship of the 0~     the Commissioner  of AoA
requested technical assistance from the Office of Inspector General (OIG) in
designing a review of their primary Title III grantees -- SUAS. In response to the
Commissioner’s request, OIG staff met with key AoA headquarters and regional staff
to identifj traditional and current stewardship activities, and to discuss potential



                                             1
approaches for future efforts. AS a result,   we agreed   that review of individual
                                                                 the
States would be instituted in such a way as to provide the Commissioner   with an
overview of how States are implementing   key components of Title III. The OIG
agreed to assist AoA in developing national, standardized review instruments for key
components of Title III and in writing a report summarizing   States’ implementation of
the Act. We also agreed that in order to conserve limited travel funds the reviews
would be conducted on a sample of States and would focus on only five programmatic
areas -- stewardship, targeting, ombudsman, nutrition, and financial management.

Designing the review began with the meeting of a review team of OIG and selected
AoA regional staff. They brainstormed approaches, identified Federal reporting and
operating requirements for SUAS and AAAs, and drafted instruments containing the
review questions and criteria. The draft instruments were shared with AoA
headquarters staff and each regional office for comments, and then revised to reflect
comments.

The OIG/AoA review teams pre-tested the instruments and data collection
methodology by conducting reviews for each of the five instruments in six States
located in four different Federal regions. The pre-test identified that a great deal of
time was lost explaining criteria (interpreting law and regulation) and searching for
documentation. Accordingly, the review team modified each of the instruments and
changed the data collection methodology. The most significant change to the
methodology required the sharing of the review instruments with the States prior to
the site visit in the belief that if States are aware of ancl understand the review criteria
being used during the review, they will be better prepared to provide required
documentation     and to discuss specific issues.

METHODOLOGY

The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. These are the same
data used to allocate Title III funds among States. In the first step of the sampling
process, States were divided into four strata based upon the number of older
individuals in each State. In the second step, we selected five States from each
stratum.   This stratified, random sample permits US to generalize findings from the 20
sample States to the Nation. Table I indicates those States selected for the review
process (See Table I).

We also used sampling techniques during site visits to each State for the reviews of
specific area plans and assessments.  In these instances, we selected a simple, random
sample of 10 AAAs prior to the visit to review on-site. For those States with less than
10 AAAs, all AAAs were included in the review.




                                              2
                                        TABLE I


                                 SAMPLE STATES

        Stratum 1           Stratum 2      I Stratum 3           Stratum 4

    California          Michigan               Wisconsin   New Hampshire
    Pennsylvania        Indiana                Colorado    North Dakota
    New York            Massachusetts          Oklahoma    Nevada
    Texas               Georgia                Maine       District
    Florida             North                  Oregon        of Columbia
                           Carolina                        Montana

The data collection  was conducted in two phases -- an AoA regional office desk
review and an on-site review at the SUA. During the desk review phase, we looked at
area plan guidance and program instructions, as-well as the State’s assessment
instruments for AAAs to determine if they are consistent with Federal law and
regulations. We also reviewed priority services waivers and targeted populations
participation data from the State Program Report for Title III.

Following the desk review, each State was sent a proposed agenda for the site visit, a
listing of the AAAs whose area plans and assessment reports will be reviewed, a COpy
of the stewardship review instrument (Appendix A), and the findings from the desk
review to be discussed during the site visit.

The review instrument focused on the guidance SUAS issued to AAAs, on key
requirements of Title III, and on the instruments and procedures they use to assess
AAAs with those requirements. A review of area plans and assessment reports
determine whether, and to what extent, they reflect OAA requirements. The
instruments also focus on the issues of SUA operating procedures, and on training and
technical assistance activities.

We entered data from the stewardship review instruments into three databases. One
database contained the responses to the open- and closed-ended questions on the
instrument and the other two contained the reviews of 151 area plans and assessments.
The number of responses to questions vary because some questions did not apply to
the four States in Stratum 4-- NH, ND, NV, & DC -- which are single planning and
service area (SPSA) States.

The percentages cited in this report are based on the responses to specific questions
contained in the review instrument. The responses are weighted to reflect the sampling
plan and are projected to the Nation. The precision at the 90-percent confidence
intervals vary for each question from plus or minus 6 to 21 percent based upon the
nature of the question (categorical or continuous) and the number of respondents to
each question.



                                           3
                                FINDINGS

AREA PLANNING AND REVIEW              WORK WE~         BUT THERE       AREA     FEW
wEAKNEsEs

All States have issued guidance to their area agencies on aging (AAAs) on the
development and content of area plans. In general, they have fully addressed Section
306 of the Older Americans Act (OAA), which outlines what an area plan “shall”
contain and what AAAs “will” do. The States’ guidance satisfactorily addresses a
majority of the areas outlined in Section 306. For a majority of the States, this
guidance delineates or highlights the specific Section 306 provisions with the
expectation that the AAAs specify how they will accomplish these legislative mandates.
(However, in at least 28 percent of the States “general boilerplate assurance
statements” are used to certi~ compliance with Section 306.) In these instances, there
is no indication in the area plans as to how the AAA will meet the Section 306
requirements.

Three criteria that are important to the overall development of a comprehensive
service system were not addressed by a significant —percentages of States in their
guidance to the AAAs. Specifically:       -

       1) 43 percent of States do not address the requirement    that AAAs coordinate
          Title III-B mental health services with the services of other mental health
          agencies (Sec. 306(a)(6)(M));

       2) 36 percent of States do not address the requirement  that the AAAs will
          conduct an annual evaluation of the effectiveness of outreach to eligible
          individuals for the program with special emphasis on various targeted
          populations in our programs (Sec. 309(a)(6)(A)).

       3) 29 percent of States do not address the requirement    to involve long term
          care facility providers in community-based   system of long term care (Sec.
          306(a)(6)(K)); and


To better understand    why these criteria were missing in the States’ area plan format,
we asked each State that- failed to address these critiria to explain how they ensure
that AAAs were meeting the specific requirements of the Older Americans Act. This
recognized that SUAS can make AAAs aware of a requirement without necessarily
including it in their area plan format or guidance. In a majority of cases, however,
States did not make AAAs aware of the requirements nor did they review area plans
to insure that requirements were addressed. This occurred in 5 of the 7 States in our
sample that did not have guidance on coordination of Title III mental health services,
and in 4 of the 5 States that did not have guidance on conducting an annual evaluation



                                            4
of outreach or on facilitating the involvement of long-term care providers in
coordinating community based long-term care.

Two other Sections of 306 were frequently not addressed in the States’ guidance.
Forty-four percent of States do not address volunteer opportunities for older
individuals in day care services for children and adults, and in respite care for families
(Sec. 306(a)(6)(E)), and 27 percent of States do not address the stipulation that AAAs
compile and provide list of higher education courses (Sec. 306(a)(6)(0)).

Most States (76 percent) use the area plan as a larger planning document to
incorporate State requirements and informational needs of the State agencies in
addition to those stipulated in Section 306. Most frequently these include:

       1) non-AoA Title III funded Federal and State programs;

       2)	 additional programmatic  areas (e.g., AAA accomplishments, program
          evaluation objectives, corporate eldercare) and financial information (e.g.,
          carryover, performance-based contracting); and

       3)	 additional administrative/management   areas required by the State Agencies
          (e.g., area agency on aging administrative goals, affirmative action plans,
          mission statements and client tracking objectives).

Planning cycles and update frequencies vary significantly among the States: 36 percent
have a 4-year area plan cycle; 38 percent a s-year plan cycle; and 26 percent a 2-year
cycle. In reviewing the actual dates of the area plans, 43 percent operate under the
Federal fiscal year calendar; the remainder have fiscal years with other starting and
ending dates. Most States (86 percent) require AAAs to update the area plans at
least annually. However, 9 percent update every two years, and the remaining 5
percent update on an “as needed” basis.

All States have formal procedures to review area plans. State agencies send written
notices to AAAs when plans do not meet, or only partially meet, the State’s review
criteria. Technical assistance is provided by phone or in writing. Responses are
required from the AAAs to the review (usually in 30 to 45 days) and acceptable
revisions must be presented.

Though not stipulated in the language of the OAA or related regulations, 22 percent
of States grant AAAs “conditional approvals” of deficient area plans. These AAAs
receive their funding allocation, but are notified that funds can be withheld if
“conditions” are not addressed by a specific date. Conditional approvals most often
result from inadequate information, or the non-submission of specific programmatic or
fiscal components required by the States in their instructions. Thirty percent of the
AAAs in such States were conditionally approved at the time of the review.

For those Section   306 requirements   most often not addressed   in the actual area plans,


                                             5

a close correlation was found between the lack of SUA guidance and the lack of AAA
discussion in the actual area plans. For example, we noted earlier the lack of
guidance on higher education, mental health, and day or respite care. In the review of
151 area plans we found that 45 percent of the plans do not address the criterion to
list higher education courses; 45 percent do not address criterion to coordinate with
mental health agencies; and 30 percent do not address the criterion to provide
opportunities in day care centers.

WAIVERS     ARE COMMON,        BUT DO NOT ALWAYS           FOLLOW    PROCEDURES

Section 307(a)(10) stipulates that an AAA cannot directly provide supportive services,
nutrition services, or in-home services, unless the State approves a waiver. Most
States (86 percent) have criteria for approving requests for the direct provision of
supportive, nutritional, or in-home services by the AAAs. States report that State
regulations and/or policy usually stipulate these criteria. In general, documentation is
required from the AAAs assuring no other available provider can effectively and
efficiently provide that service in terms of program quality and economic cost. AIso, 5
percent of States prohibit any direct provision of services by any of their AAAs.

Most States (79 percent) grant approval to their AAAs to directly provide supportive,
nutritional or in-home services. Among the AAAs in those States: 41 percent directly
provide supportive services; 36 percent directly provide nutrition services; and 24
percent directly provide in-home services.

Section 306(b)(l) of O-       permits each State to waive the requirements for
expending an adequate proportion of Title III-B funds for access services, in-home
services and legal assistance. Regarding this adequate proportion requirements, 33
percent of States grant waivers to their AAAs. Of these States: 2 percent granted
waivers for access services to 27 percent of their AAAs; 22 percent gave waivers for
in-home services to 18 percent of their agencies; and 16 percent provided waivers for
legal assistance to 6 percent of their agencies. However, 82 percent of these States
did not publish their intent to grant the waiver, nor did they provide AoA with a
report on the waiver, as required in Section 306(b)(2)(A).

ASSESSMENTS      ADDRESS      MOST REQUIREMENTS,           BUT NOT ALWAYS
ANNUALLY

Generally, States concentrate their on-site assessment efforts on reviewing
programmatic areas and issues considered as SUA or AoA priorities. The on-site
assessment review often concentrates on reviewing AAAs’ progress in implementing
area plans and, in the case of single planning and service area States, service
providers’ progress in implementing service plans.

Ass essment Ihstnunent Content And Format

States are generally addressing many of the requirements   identified in Section 306.


                                            6
However, a significant percentage of States do not address certain areas identified in
Section 306(a)(6), which stipulates activities AAAs “will” do.

Some of the more significant activities frequently missing on assessment instruments
are:

       1) 47 percent do not have criteria to determine if AAAs conduct an annual
          evaluation of outreach (Sec. 306(a)(6)(A));

       2) 46 percent do not have criteria to determine if AAAs coordinate   Title III-B
          mental health services (Sec. 306(a)(6)(M)) or to identi~ agencies working in
          areas of abuse, neglect and exploitation (Sec. 306(a)(6)(J)); and

       3) 44 percent of States do not have criteria to determine if AAAs facilitate
          involvement of long-term care providers in coordinating community based
          long-term care services (Sec. 306(a)(6)(K)).

Other criteria frequently missing from State assessment instruments are: 1) 60 percent
of States do not address area agencies’ activities in providing volunteer opportunities
in day care services for children and adults (Sec. 306(a)(6)(E)); and 2) 54 percent do
not determine if AAAs compile a list of higher education courses (Sec. 306(a)(6)(0)).

Regarding those criteria missing from SUA assessment instruments, States were asked
to explain how they ensure that AAAs were meeting the related requirements of the
OAA. A majority of the responses revealed that the States do not review AAAs
activities in those areas. For example, all of the States not having the criterion
regarding conducting an annual evaluation of outreach reported that they do not
review AAAs activities. This could help explain in part why only half of the States
report that all of their AAAs conducted the annual evaluation of the effectiveness of
outreach.

Regarding compiling listings of higher education courses, all of the States without the
criterion reported that they do not review this activity. One State commented that its
highest priority is to ensure the efficiency and operations of those programs and
activities that address those most in need. Efforts to ensure that AAAs are compiling
and providing information on higher education courses were therefore not a priority.

Most States have also added “other significant items” to their assessment instruments
to obtain a comprehensive review of their AAAs. These include review items on:

       1) additional State requirements on programs (e.g., targeting, nutrition
          volunteer, senior centers, eldercare);
       2) area agency on aging administration and program management (e.g., policies
           and procedures, staffing and organization);
       3) additional State requirements on financial management (e.g., procurement,
            contract management, accounting systems);


                                            7
       4) review of non-AoA programs administered by the AAAs; and
       5) identification of best practice models.

In conducting this review, we obtained an overview of a variety of methods, used by
sample States, to assess their AAAs. In one State agency, a “field administration unit”
(part of the larger umbrella agency in which the SUA is housed) conducts quarterly
site visits of the area agencies to review “management issues” and track achievement
of “goals and objectives.” This allows SUA staff to focus on the in-depth evaluation of
the operations of the area agencies during their on-site visit.

Another State agency reported that it conducts its overall assessment in a “three-cycle”
process starting with the area plan development and review process. In the second
cycle, the area agency completes a “compliance review checklist” that the State agency
staff reviews and verifies, based on available documents at the State agency. In the
third cycle, the State agency program and fiscal staff conducts the on-site review of the
management of the agencies’ programs.

And another State agency conducts a “focused assessment” in addition to its overall
assessment. The focused assessment is conducted on a specific area of concern (e.g.,
subcontractor monitoring) identified as a specific weakness of the area agencies based
on the previous year’s assessments. Through the focused assessment, the State agency
is able to conduct a comprehensive evaluative review which would identi~ specific
areas of weakness and pinpoint areas needing technical assistance. Through this
process, the State agency can determine how specific programs are operating and
assist in identi~ng best practice models for use by other AA&.

Frequency Of On-Site Assessrnenfi

The statutory basis for the expectation that State agencies assess and monitor             the
activities of AAAs is seen in Section 307(a)(8).  Through the years, AoA and               many
State agencies have interpreted  and instituted the practice of conducting “an            annual
on-site assessment” of area agencies to evaluate their programs and activities.             Only 32
percent of States report conducting on-site assessments of all AAAs annually;              another
35 percent report doing so on a semi-annual basis. The remaining 33 percent                 of
States conduct them less frequently (e.g., every 18 months, every two years).

A closer review of the 6 sample States who reported not doing at least an annual on-
site evaluation shows that two reported that their “official policy” is to do an annual
on-site visit; however, in practice this has not taken place. One of these States did it
every 2 years and the other tried to do them all but missed several area agencies in its
annual review. For the other States, one conducted an annual on-site assessment for a
quarter of its agencies; another did the on-site assessment every 18 months (to
correspond to their 3-year Area plan cycle); and two States reported that their last on-
site assessments   of area agencies took place in FYs 1989 and 1988.

In discussing   their experiences   in conducting       the annual on-site assessments,   several


                                                    8
States commented on the “severe State budgetary constraints” they are experiencing
which have affected the operations of the State agency. These budgetary constraints
have resulted in the reduction of State agency staff and travel funds which have
impacted on their ability to conduct annual assessments. These constraints have also
forced the States to re-examine the frequency and the content of their on-site reviews.
States have commented that the practice of conducting an annual, on-site assessment
review may not be feasible in the near future in light of continuing budgetary
constraints.

Other Methodbbgia     Used To Monitor AAAs

Beyond periodic, on-site assessments, States use other methodologies to monitor the
performance of AAAs. In some instances this monitoring addresses criteria not
included in the formal assessment. Most frequently this monitoring is as follows:

       1)   Ninety-six percent of States use on-site reviews. These on-site reviews used
            to verify documentation and data submitted on program and financial
            reports, and to follow-up on identified issues. They are also used to attend
            public hearings, advisory council meetings, training seminars, and to observe
            actual provision of services by providers;

       2) Seventy-eight percent utilize the review and analysis of monthly or quarterly
          program and fiscal reports. Reports are reviewed for trends and
          comparison of actual and projected service and financial data. These
          reports allow States to monitor service costs, service provision, participation
          rates, and targeting efforts of area agencies. Telephone contacts and/or on-
          site visits are use to follow up on deficiencies revealed through the reports;
          and

       3) Twenty-eight percent conduct desk reviews of self assessment forms.
          Follow-up site visits or telephone interviews are usually used to veri@
          responses.


ALL AAAs EVALUATE ACIWITES  AND CONDUCT                       PUBLIC HEARINGS,
BUT MANY DO NOT ASSESS THE EFFECI’IVENESS                     OF OUTREACH

Section 306(a)(6)(A) of OAA stipulates    that the area agency on aging will conduct
periodic evaluations of, and public hearings on, activities carried out under their area
plan, and will conduct an annual evaluation of the effectiveness of outreach to eligible
individuals for the program, with special emphasis on specific targeted populations.
All States report their AAAs have conducted both the annual evaluations of area plan
activities and the annual public hearings. However, only 49 percent report that all of
their AAAs have conducted the annual evaluation of the effectiveness of outreach.        Of
those States who report that not all of their AAAs have conducted the annual
evaluation of outreach, 29 percent of States did not know whether the evaluations


                                             9
have occurred; the remaining States report from 12.5 to 85 percent of their W
have conducted the evaluation of the effectiveness of outreach.

Though not a requirement of O-        42 percent of States report analyzing the A&%
evaluations of outreach. Of those States, 36 percent commented that effective
outreach in a time of level and limited service dollars has raised additional
programmatic concerns. It creates waiting lists and a demand for services that area
agencies have difficulty supplying.


SUAs PROVIDE TECHNICAL           ASSISTANCE      AND TRAINING        TO ADDRESS
AAA DEFICIENCIES

The most commonly reported deficiencies identified by the SUAs’ assessments of
AAAs were:

              contracting, monitoring and provision of technical assistance to
                subgrantees or service providers;
              administrative and management issues (e.g., training, shortage of staff);
              program administration (e.g., service coordination, documentation of
                services, needs assessments);
              reporting (e.g., data collection, analysis, delinquent reports); and
              weaknesses in various programmatic areas (e.g., targeting and low-
                income participation: advisory council composition and use, outreach).

Regarding the type of technical assistance provided by the State agencies, States have
attempted to address many of the deficiencies identified in the assessments. The most
common types of technical assistance and training provided by States are in the areas
oh 1) program administration and management (e.g., area plan development and
planning, monitoring and assessments, recruitment of staff, directors’ training); 2)
grant/financial management (e.g., budgeting, preparation of RFPs, financial
management, performance-based contracting); 3) reporting; and 4) State policies and
procedures (e.g., policy and program interpretations).    In addition, a wide variety of
specific programmatic areas were identified. These include nutrition services, advisory
councils, serving older persons with disabilities, implementation of the Americans with
Disabilities Act and its impact on OAA programs, targeting and community-based
systems of care.

States also use other methods to determine and identify the need for technical
assistance and training. They include:

              direct requests from area agencies and providers;

              analysis of monitoring and assessment findings;

              review and analysis of program and fiscal reports;

              changes in Federal/State program priorities and policies; and

              State agency training survey.



                                           10
Despite their ongoing technical assistance efforts, 85 percent of States report their
area agencies still have unmet training and technical assistance needs. The most
common are:

              program and financial management (particularly in the areas of
                reporting, management information systems, and monitoring);
       .	     resource development and cutback management;
              targeting;
              new network personnel;
              advisory councils; and
              wide variety of programmatic areas (most frequently mentioned-
                outreach and use of volunteers).

In addition, 63 percent of States report that they also have unmet technical assistance
and training needs. They include having a better understanding    of what AoA wants in
terms of assessments, monitoring and evaluation of programs, priorities of Ao~
service expectations in terms of quality and quantity, and identification of best practice
models. Other State unmet technical assistance and training needs are targeting,
reporting (service data gathering and analysis), and a variety of specific program areas
(e.g., Americans with Disabilities Act, cost sharing and managing with declining
resources).




                                             11

         APPENDIX      A




Review Instrument   For Stewardship
                                STEWARDSHIP                      COMPLIANCE                    REVIEW

                                  Department of Health and Human Services
                                           Administration on Aging




State                                                                                  Date

Primary Respondent                                                                       Telephone

Review Team Leader                                                                        Telephone


                                 -----------------------------------------------------------


1.        Prior to the on-site visit, obtm”na copy of the Area Plan format provided to Area Agencies
          on Aging (AAAs) j%om the stae Agency on A~”ng (state Agency). Review and determine
          whether or not the Area Plan format dresses      the criteria identified in the following
          table. Indica/e your responses with an X in the approp~e        column reflecting these codes:

                              Y (Yes)     =                 Total Compliance with Cderia
                              P (Pa71ial) =                 Patil  Compliance with Ctiteria
                              N (No)      =                 Not in Compliance with Criteria


                                     CRITERIA                                            Y     P     N   CO~lME~TS
     al        Sec. 306(a)(2)

               contain an assurance that an adequate proportion of
               Title III-B will be expended for access, in-home,
               and legal assistance,...

     az        speci& annually, amounts expended in previous
               fiscal year for access, in-home and legal assistance;

     b         Sec. 306(a)(3)t?L1321.3

               designate community focal points for services;
     c         Sec. 306(a)(4)

               establish and maintain   information       and referral
               services;

     dl        Sec. 306(a)(5)

               assure that preference is given to serving those of
               greatest economic or social needs (particularly low-
               income minoritic9)...
     d~        have proposed methods to serve those of greatest
               economic or sociaI needs...



                                                                           A-1
                                CRITERIA                                Y   P   N   COMMENTS
d3    assure each service provider agreement will specifj
      how the service provider will serve low-income
      minorities . . .in at least the same proportion...

d4    identifi numbers of and describe methods used to
      serve low-income minorities in previous fiscal
      year. . .

ti    assure use of outreach methods . . .with special
      emphasis on rural elderIy, greatest economic or
      social needs (with particular attention to low-income
      minorities), and severe disabilities;

el    Sec.   306(a)(@

      conduct periodic    (at least annually)   evaluations

e2    conduct public hearings     on Area Plan activities...

e3    conduct an annual evaluation      on outreach...

e4    provide   technical assistance   to service providers...

e5    consider views of recipients of services in the
      development and administration of &ea Plan...

e6    monitor, evaluate, and comment        on policies,
      actions... affecting elderly . . .

e7    provide volunteer opportunities for older individuals
      in day care services for children and adults and
      respite for families...

e8    establish an Area Agency advisory         council...

e9    develop and publish methods for determining
      priority of services...

elo   establish procedures for coordinating Title III
      programs with other Federal programs as specified
      in SW. 203(b) . . .

ell   facilitate coordination    with community-based,        long-
      term care services...

e12   identifi agencies and organizations       working in areas
      of abuse, neglect, and exploitation       of older people...

e13   determine unmet service needs of abused,           neglected,
      and exploited older individuals...

e14   facilitate involvement of long-term care providers           in
      coordinating community-based      long-term care
      services...

e15   coordinate priority sewices      with Alzheimer’s       disease
      organizations...
                                      CRITERIA                            Y   P   N   COMMENTS
     e16       coordinate Title III-B mentai health services with the
               services of other mental health agencies and
               organizations...

     e17       conduct outreach    services   to older Indians...

     e18       compile and provide list of higher education courses
               available to and enrollment policies for older
               individuals in each planning and service area...

     f         Sec.   306(a)(7)

               assure proper use of Title III-D funds...

     1?        Sec.   306(a)(10)

               assure proper use of Title III-G funds...




At this point, you should have completed the in-house compliance review of the area plan
format provided to the AAAs. For each criteria Ia-lg indic~”ng an entry of LVOor PARTL4.L,
 list it in the j%t column of questz”on2 prior to the on-site interview. Ask question 2 duting the
 on-site visit following the bn”ef explanti”on initiating the interview.

2.        A few weeks ago, we requested a copy of the area plan format provided to the Area
          Agencies on Aging concerning stewardship.    This format was reviewed against Section 306
          of the Older Americans Act. During this review, we identWled parts of Section 306 which
          were only partially addressed, or which were not addressed in your area plan format. For
          these, I need to understand how the State Agency directs and ~~ides the MS         to ensure
          that stewardship requirements are met for those criteria not addressed or partially addressed
          in your area plan format.

           Criteria # with
            No or Partial                         AEencv Res~onse




                                                                    A-3
     (lf additional space is required, use the back of the previous page.)

3.   Beyond that required by Sec. 306 of OAA, what significant items have you added to area
     plan formats?




     b.          Don’t Know (Check if applicable)



                                               A-4
      4.          What are the begizming and ending dates of your most current Area Plan

                       Begitig   date -
                  ::   Ending date -

      5.         IF UTI-YEAR             PLANS: How often are they up-dated?

      6.         What follow-up procedures do you have to address sections in Area Plans that did not meet
                 or only partially met criteria of the State Agency’s Area Plan review?

                 a.




                b.            Don’t Know       (Check ~~applicable)

  7.            ~e anY *S       operathg under a “conditiondly” approved Area Plan?

                a.	         Yes, (If yes),

                             (1)   HOW     m.ny AA% have condition      approval for Area Plans?

                                                  (indictie number)

                             (2) What factors may genedly       result in a condition     approval?

                                   (a)
                                   (b)
                                   (c)
                                   (d)
                                   (e)            Don ‘t Know (Check Z~applicable)
            b.            No (1J No, skzp to question 9)
            c.            Don’t Know (Check Z~ applicdle)

8.	        What are State Agency procedures to bring conditionWy-approvd                Area P1ans into full
           approval?

           a.




           b.               Don’t Know (Check z~applicdle)


                                                          A-5
9.    Does the State Agency have any criteria for approving the direct provision of supportive
      services,   nutrition services, or in-home services?

      a.              Yes (If yes), What are they?




      b.              No
      c.              Don’t Know (Check if applicable)

10.   Are any &%As approved by the State Agency to directly provide supportive services,
      nutrition services or in-home services?

      a.              Yes
      b.              No (If No, skip to question 12)
      c.              Don’t Know (Check if applicable)

11.   What are the number of AAAs providing         each?

      a.              Number of Ws    directly providing supportive services
      b.              Number of A&U directly providing nutrition sewices
      c.              Number of AAAs directly providing in-home services
      d.              Don’t Know, (Zdenti! whether Don ‘t how applies to a, b, c,
                    or combinti”on):




1~,   State Agencies have the ability to waive the adequate proportion requirement for Title III-B
      semices. How many A&% have been granted waivers for: (Fill-in with a-c and record
      response)

      a.              Access services?
      b.              In-home services?
      c.              Legal assistance services?
      d.              Don’t Know, (Identi! whether Don ‘t how    applies to a, b, c,
                    or combintin):




/NOTE:       A7TACHMEATT B PERTNNS TO IN-HOUSE DESK REVIEW OF MA W/UVERS
             - IF ANY INFORMLHTON IS MISSING OR INDIC.TES DISCREPMCIES, ASK
             ABOUT THESE DURING IHE ON-SITE VISIT /iT 1271S POINV


                                                    A-6
13.        Prior to the on-site visit, obta”n a COpyof the instrument used by the St&e Agency to
           assess compliance and pe~onnance of AAAS with stewardship lizw and reguhtions. If the
           questions on stewardship are pati of a larger review instrument, ask the State Agency to
           identifi or highlight those items petim”ning to the review of stewardship practices. Have
           the St&e Agency mark the instnxment(s) with the applicable ctieriu (e.g., a, b, C, etc.)
           using a provided copy of the criteria. This infonnti”onal request should be included in
           the letter that is sent to the State Agency outlining the Complh.nce Review. Review and
           determine whether or not the assessment instruments address the stewardship criteria
           iiientified in the following table. Indicate your responses with an X in the approp~e
           column reflecting these codes:

                                 Y (Yes)           =       Total Compliance with Criteti
                                 P (Pati)          =       Patil Compliance with Giteriu
                                 N (No)            =       Not in Compliance with Criteria

           Dun”ng the desk review, if the assessment instrument and retied matetils do n~ include
           those items necessary to make a determinti”on of compliance (1(, P, or N), mark NA (Not
           AvailaMe) in the Comments section of the table.



                                        CRITEIUA                               Y   P   N     coImlENTs
      al        Sec.   306(a)(2)

                contain an assurance that an adequate proportion of
                Title III-B will be expended for access, in-home,
                and legal assistance,...

      b         Sec.   306(a)(3)~    1321.3

                designate   community      focal points for services:

      c         Sec.   306(a)(4)

                establish   and maintain    information   and referral
                services;

      dl        Sec.   306(a)(5)

                assure that preference is given to serving those of
                greatest economic or social needs (particularly low-
                income minorities) . . .

      d2        have proposed methods to serve those of greatest
                economic or social neals...

      d3        assure each service provider agreement will speci~
                how the semice provider will scne low-income
                minorities... in at least the same proportion . . .




                                                                         A-7
                                CRITERIA                                 Y   P   N   COMMENTS
d5    assure use of outreach methods . . .with special
      emphasis on rural elderly, greatest economic or
      social needs (with particular attention to low-income
      minorities), and severe disabilities;

el    Sec.   306(a)(6)

      conduct periodic (at least annually)      evaluations

e2    conduct public hearings      on Area Plan activities...

e3    conduct an annual evaluation       on outreach...

e4    provide technical assistance      to service providers...

e5    consider views of recipients of services in the
      development and administration of Area Plan...

e6    monitor, evaluate, and comment         on policies,
      actions... affecting elderly . . .

e7    provide volunteer opportunities for older individuals
      in day care services for children and adults and
      respite for families...

e8    establish   an Area Agency advisory council . . .

e9    develop and publish methods        for determining
      priority of services...

e10   establish procedures for coordinating Title III
      programs with other Federal programs as specified
      in Sec. 203(b) . . .

ell   facilitate coordination    with community-based,         long-
      term care services...

~1~   identi & agencies and organizations      working in areas
      of abuse, neglect, and exploitation      of older people...

e13   determine unmet service needs of abused,             neglected,
      and exploited older individuals...

e14   facilitate involvement of long-term care providers            in
      coordinating community-based      long-term care
      services...

e15   coordinate priority    services with Alzheimer’s        disease
      organizations...

e16   coordinate Title III-B mental health semices with the
      senices of other mental health agencies and
      organizations...

e17   conduct outreach      services to older Indians...




                                                                A-8
                                     CRITERIA                         Y   P   N    COMMENTS
      e18      compile and provide list of higher education courses
               available to and enrollment policies for older
               individuals in each planning and service area...

      f        Sec.   306(a)(7)

               assure proper use of Title III-D fi.mds...

      ~        Sec.   306(a)(10)

               assure proper use of Title III-G funds...


For each cderiu 13a-13g indicting ~ entry of NO, PmT~,           or NOT AV’LABLE,      list ii in
the jirst column of que~”on 14 pn.or to the on~site interview. NOTE: For those items marked
NA as a result of the desk review, State Agency responses may indicate conve~-ng the NA to Y,
P, N, or to CMSL (Criteti met at State level’) or NSC (Sttie Agency does not address this
applicable Fedeml criteti).  Ask question 14 dun”ngthe on-site visit.

14.       We have reviewed your assessment instrument for AAAs and note that some requirements
          of Sec. 306 of the OAA are not covered. HOW do you ensure that MS     are meeting the
          requirements of the Older Americans Act in the following areas?

          Criteria # with
           No, Partial, or
          Not Available entrv                         A~encv Response




          (If adliitional space is required, use the back of the previous page.)

                                                            A-9
15.   Beyond that required by Federal law or regulation, what si~nifica.nt items have you added to
      your assessment instrument for assessing AAAs?

      a.




      b.           Don’t Know (Check if applicable)


16.   HOW   frequently does the State Agency perform on-site assessments of Ms?

      a.           Annually
      b.           Semi-annually
      c.           Quarterly
      d.           Monthly
      e.           Other, (Specifi time period)
      f.           Don’t Know (Check if applicable)


17.   What were the beginning and ending dates of the last complete cycle of assessments?

      a.    Beginning Date -
      b.    Ending Date -


18.   During your last review cycle, were all AAAs assessed?

      a.         Yes
      b.         No, (If No) (1)     How            A&h        were assessed?

                                     (a)                       nf
                                                               W1


                                           Number   Assessed        Totid # AA/h


                                     (b)              Don’t Know (Check if applicable)

                               (2)   Why weren’t all of the AAAs assessed?

                                     (a)




                                     (u               Don’t Know (Check if applicable)

      c.         Don’t Know (Check if applicable)


                                                    A-10
19.   What other processes are in place to monitor the performance of -s?     (Check all
      applicable responses)

      a.            On-site review
      b.            Desk review of “self-assessment” form
      c.            Telephone interviews
      d.            Other (S’pecifi)

                        (1)
                        \–/



                        (2)


                        (3)



20.   Provide a brief descriptionof how each process is USed to monitor the performance of
      AAAs.    (Description should be provided for each applicable response provided in question
      19)




21.   What were the most common deficiencies revealed in the last cycle of assessments of the
      Area Agencies?

      a.
      b.
      c.
      d.
      e.
      f.           Don’t Know (Check if applicable)




                                               A-n
22.	   Has the State Agency implemented proc~ures to ensure that issues or concerns mised
       during an assessment of an Area Agency on Aging are resolved?

       a.         Yes @’~yes), Please describe:




       b.         No (If no), Why not?




       c.         Don’t Know (Check if applicable)


23.	   What percentage of your MS     conducted the annual evaluation    of activities carried out
       under the Area Plan? [Sec. 306(a)(6)(A)]

                              (Indic&e percentage)


24.	   What percentage of your #@As conducted the public hearings on activities carried out under
       the Area Plan? [Sec. 306(a)(6)(A)]

                              (Indicate percentage)


25.	   What percentage of your MS         conducted the annualevaluation of the effectiveness of
       outreach (to identify and inform individuals eligible for assistance, with special emphasis on
       the rural elderly; those of greatest economic or social need; and older individuals with
       severe disabilities)? [Sec. 306(a)(6)(A)]

                              (Indicate percentage)
26.	   Have you analyzed the:    (Fill-in the remt-u”nderof the question with a, b, and C. Indicate
       response for each)

       a. evaluation of activities?

             (1)          Yes (If Yes), What are your primary observations   based on the analysis?




             (2)          No

             (3)          Don’t Know (Check if applicable)



       b. results of public hearings?

             (1)          Yes (If Yes), What are your primary observations   based on the analysis?




             (2)          No

             (3)          Don’t Know    (Check if applicalde)



       c. evaluation of outreach?

             (1)          Yes (If Yes), What are your primary observations   based on the analysis?




             (2)          No

             (3)          Don’t Know (Check if applicable)





                                                  A-13
27.   What technicN assis~ce andtmkkg         hasthe Stite Agency providd    to MsM       order to
      address any identifkd deficiencies?

      If technical assistance or trm”ninghas been provided, indicate on the following table the
      type of technical assistance or traz”ningprovided, how the need was determined, and how
      the technical assistance or trm”ning was provided, (e.g., memoranda, consuhznts,
      telephone caIls, on-site visits, etc.).




      L
                      TECHNICAL                 HOW NEED FOR                  HOW TECHNICAL
                   ASSISTANCE    OR         TECHNICAL  ASSISTANCE              ASSISTANCE   OR
                 TRAINING   PROVIDED             OR TRAINING                TRAINING   PROVIDED
                                                 DETERMINED

           (a)


           @)


           (c)


           (d)


           (e)


           (f)


           (9


           m)



      (i)           Don’t Know (Check if applicable)

28.   Do the Ws     have any unmet training or technical assistance needs          to their
      stewardship activities?

      a.          Yes (If yes), Please describe:

                                                              .




      b.          No
      c.          Don’t Know (Check if applicable)


                                                   A-14
29.        Does the State Agency have any unmet training or technical assistance needs related to
           stewardship activities?

           a.          Yes (If yes), Please describe:




           b.          No
           c.          Don’t Know (Check if applicable)

30.        l%e preselected sample of 10 Area Agencies on Agr”ngwere identified prior to the on-site
           visit. Khis sample is to be used throughout the compliance review process for all five
           areas, the jirst compliance review being Stewardship.

           For the sample AAAs, obtu”n the most current Area Plan. Review each Area Plan and
           determine the extent to which the plun addresses the statuto~ and regulatory cdeti
           identified in Attachment A. Recoti your responses on the following table un”ngthese
           codes:
                                                                                              .
                              Y (Yes)   =     Total Compliance with Criteria
                              P (Pa&)   =     Pa&      Compliance with Cn!teti
                              N (No)    =     Not in Compliance with Ctien!u
                              NSC       =     No State Criteti (State Agency does not use this
                                              Federal criteti - identified through in-house review of
                                              St&e Agency’s area pkzn format)
                              o         =     Other Finding @rovide explan~”on and indicate by
                                              repoti number and criteria number in the Comments
                                              section following the table)



      Name

      Sample       1         2        3       4          5     6     7        8        9      10
      Number

      Criteria

      al
      a2


      b



                                                        A-IS
Name

Sample   1   2   3   4   5      6   7   8   9   10
Number

 c


dl


d2


d3


d4


Ci5


el


e2


e3


e4


e5


e6


e7


e8


e9


e10


                         A-16
Name

Sample   1   2   3   4   5      6   ‘7   8   9   10
Number

ell


e12


e13


e14


e15


e16


e17


e18


f


g


COMMENTS
      :




                         A-17
31.        For the sample AAAs, obtain the most cuwently completed annual cycle of State Agency
           assessment instnzments and corresponding assessment repotis (if any). Review the
           assessment jindings and determine the extent to which each of the sample AAAs were in
           compliiznce with each of the cn”teriuidentified in Attachment A. Record your responses
           on the following table using these codes:

                            Y ~es)     =       Total Compliance with Criteti
                            P (Pa&)    =       Pati    Compliance with Criteria
                            N (No)     =       Not in Compliance with Criteria
                            NSC        =       No Sta$e Ctieria (State Agency does not assess this
                                               Federal criteriu - identified through in-house review of
                                               State Agency’s assessment tool and retied m~eriuls)
                            CM.SL4 =           Cdeh     metal State level
                            o      =           Other Finding (@ovide exphn&”on and indicate by
                                               repoti number and cziteriiz number in the Comments
                                               section following the table)



      Name

      Sample       1       2       3       4         5        6       7        8        9      10
      Number

      Criteria

      al
      b


      c


      dl


      d2


      d3


      ti


      el




                                                     A-18
Name

Sample   1   2   3   4   5      6   7   8   9   10
Number

e2


e3


e4


e5


e6


e7


e8


e9


e10


ell


e12


e13


e14


e15


 e16


 e17


                         A-19
Name

Sample   1    2     3   4   5      6   7   8   9   10
Number

e18


f


g


COMMENTS:




flNTERVIEW COMPLETED]




                            A-20
